10

CERTIFICATE
PROOF OF SERVICE
True copies of all documents filed in this Court, addressed to the Clerk,
Supreme Court of the United States, Washington, DC 20543, or by electronic
means, and served on opposing parties, or their known appearance of counsel,
in accordance with Rule.
ATTORNEY ERIC COSTINE, ESQ.
136 WEST MAIN STREET
SAINT CLAIRSVILLE, OH 43950
for Clyde Yates, Jr., Kimberly Yates (a.k.a. Kimberly Craig)
ATTORNEYS JACOB E. REED
DANIEL D. EISENBREI, ESQ.
GREGORY A. BECK, MELVIN L. LUTE, JR.
BAKER, DUBLIKAR, BECK, WILEY & MATHEWS
400 S. MAIN STREET,
NORTH CANTON, OH 44720
for Jeffrey Loeffler; Robert Newhart, Sr.;
Timothy Merryman; Gary Rodgers;
Donald Collette; Robert Gorrell, Sr.;
Village of Shadyside,Ohio; Joseph Klug
ATTORNEY KELLY GENE KOTUR, ESQ.
407-A HOWARD STREET
BRIDGEPORT, OH 43912
for Daniel S. Napolitano, Kimberly N. Napolitano
ATTORNEY KELLY GENE KOTUR
DAVIS AND KOTUR LAW OFFICE, LPA
407-A HOWARD STREET
BRIDGEPORT, OH 43912
for Richard L. Loew, Jr., Rebecca Jo Lowe
KIMBERLY HARRIS
3301 CENTRAL AVENUE
SHADYSIDE, OH 43947
Pro se

I declare under penalty of perjury that the foregoing is true and correct.

GREG P. GIVENS, Pro Se Petitioner
Dated: July 13, 2020

PROOF OF SERVICE

CERTIFICATE OF CORRECTION

True copies of all documents with corrected certificate filed in this Court,
addressed to the Clerk, Supreme Court of the United States, Washington, DC
20543, or by electronic means, and served on opposing parties, or their known
appearance of counsel, in accordance with Rule.
ATTORNEY ERIC COSTINE, ESQ.
136 WEST MAIN STREET
SAINT CLAIRSVILLE, OH 43950
for Clyde Yates, Jr., Kimberly Yates (a.k.a. Kimberly Craig)
ATTORNEYS JACOB E. REED
DANIEL D. EISENBREI, ESQ.
GREGORY A. BECK, MELVIN L. LUTE, JR.
BAKER, DUBLIKAR, BECK, WILEY & MATHEWS
400 S. MAIN STREET,
NORTH CANTON, OH 44720
for Jeffrey Loeffler; Robert Newhart, Sr.;
Timothy Merryman; Gary Rodgers;
Donald Collette; Robert Gorrell, Sr.;
Village of Shadyside,Ohio; Joseph Klug
ATTORNEY KELLY GENE KOTUR, ESQ.
407-A HOWARD STREET
BRIDGEPORT, OH 43912
for Daniel S. Napolitano, Kimberly N. Napolitano
ATTORNEY KELLY GENE KOTUR
DAVIS AND KOTUR LAW OFFICE, LPA
407-A HOWARD STREET
BRIDGEPORT, OH 43912
for Richard L. Loew, Jr., Rebecca Jo Lowe
KIMBERLY HARRIS
3301 CENTRAL AVENUE
SHADYSIDE, OH 43947
Pro se

I declare under penalty of perjury that the foregoing is true and correct.

GREG P. GIVENS, Pro Se Petitioner
Dated: September 9, 2020

